%

21-5211

Q ORIGINAL

No.

Supreme Court, U.S.
FILED

Supreme Court of tfie ffimteh States

JUL 1 9 2021
OFFICE OF THE CLERK

EDWIN ARTIS PETTAWAY,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent

ON PETITION FORA WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
COMES NOW PETITIONER EDWIN ARTIS PETTAWAY and respectfully moves
this Honorable Court for leave to proceed in forma pauperis, in accordance with the provisions of
Title 28, United States Code, Section 1915, and Rule 39 of the Rules of this Court.
The affidavit of Edwin Artis Pettaway in support of this motion is attached hereto.
Mr. Pettaway did not seek leave to proceed in forma pauperis in the court below.
Mr. Pettaway was not granted leave to proceed in forma pauperis in the court below.

RECEIVED
JUL 2 3 2021

-»'

%

Presented herewith is Mr. Pettaway’s Petition for Writ of Certiorari to the Court of
Appeals for the Eleventh Circuit.

Edwin Artis Pettaway
Petitioner
36222-001
P.O. Box 9000
Forrest City, AR 72336
Date:

